U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




     NATIONAL INSTITUTE OF
STANDARDS AND TECHNOLOGY


  Logistics Group Operations Are Mostly
    Sound but Management Attention Is
                  Needed in Some Areas
         Final Inspection Report No. 18321/March 2007




          PUBLIC RELEASE




                Office of Inspections and Program Evaluations
U.S. Department of Commerce                                                                                         Final Report IPE-18321
Office of Inspector General                           FOR OFFICIAL USE ONLY                                                    March 2007

                                                               CONTENTS

Summary .......................................................................................................................................... i
Background ......................................................................................................................................1
Objectives, Scope, and Methodology ..............................................................................................3
Observations and Conclusions.........................................................................................................5
I.     Management Should Address Several Issues Involving NIST’s Precious Metals Inventory..5
        A.       NIST’s guidance and training for precious metals custodians should be improved......5
        B.       Several precious metals containers are not connected to the NIST Police
                 Services alarm system....................................................................................................6
II.    Property Management Procedures Are Generally Adequate, but the Need for a
       Large X-ray Scanning Machine Should Be Assessed..............................................................9
        A.       Property management procedures and physical access controls within the
                 Logistics Group are generally adequate.........................................................................9
        B.       The Logistics Group rarely operates its large X-ray scanning machine ......................10
III. The Logistics Group’s Staffing, Safety Measures, and Guidance on Shipping and
       Receiving Procedures Could Be Strengthened ......................................................................12
        A.       Current staffing levels impact operations and raise safety concerns ...........................12
        B.       Additional safety concerns warrant management attention .........................................13
        C.       NIST employees are not adequately informed about shipping and receiving
                 procedures ....................................................................................................................14
IV. The Logistics Group’s Procurement Activities Are Generally Sound, but Its Own
       Storeroom Inventory Management System Is Inefficient and Should Be Replaced .............17
        A.       The Logistics Group’s contract awards appear to comply with applicable
                 federal procurement regulations, but previous government purchase card
                 statements revealed split purchases .............................................................................17
        B.       The storeroom’s inventory management system limits the staff’s ability to
                 purchase supplies efficiently........................................................................................19
Summary of Recommendations.....................................................................................................21
APPENDIX: NIST Response to OIG Draft Report.......................................................................22




                                                      FOR OFFICIAL USE ONLY
U.S. Department of Commerce                                                                 Final Report IPE-18321
Office of Inspector General                FOR OFFICIAL USE ONLY                                       March 2007

                                                  SUMMARY

The Logistics Group unit of the Administrative Services Division provides the National Institute
of Standards and Technology’s (NIST’s) Gaithersburg, Maryland, headquarters with a number of
services. They include personal property management and disposal, shipping and receiving,
arranging household moves for select employees and researchers, and operating a supply
storeroom. In addition, the Logistics Group, along with the Finance Division, conducts an
annual inventory of the precious metals used by NIST researchers.1

From October to December 2006, the Office of Inspector General conducted a review of select
services provided by the Logistics Group as part of its effort to strengthen internal controls over
financial and programmatic processes within the Department.2 Such services included precious
metals inventory maintenance, shipping and receiving, property accountability for the group’s
operations,3 and storeroom operations. As part of our review, we met or spoke with staff from
the Logistics Group and from several NIST divisions as well as an official from the
Department’s Office of Security to discuss physical security measures. In addition, we reviewed
pertinent guidance, records, purchase card statements, and contract award files provided by NIST
Gaithersburg staff (see page 3). Overall, we found that the Logistics Group’s operations and
procurement activities were generally sound. However, we found several areas where the
Logistics Group’s operations need management attention. Our specific observations are as
follows:

Management should address several issues involving NIST’s precious metals inventory.
NIST’s large inventory of precious metals was valued by NIST’s Finance Division at
approximately $1.2 million as of September 30, 2006. Precious metals are used by researchers in
their experiments and are maintained in several containers by custodians in both Gaithersburg,
Maryland, and Boulder, Colorado.4 We found no material (i.e. significant) discrepancies with
respect to the precious metals inventory in Gaithersburg through interviews with precious metals
custodians and our review of relevant documents. However, we found that NIST’s precious
metals guidance should be revised (1) to provide additional procedures to strengthen inventory
maintenance, such as instructions for recording new precious metal purchases and disposing of
excess precious metals, and (2) to reflect current organizational information. In addition, none of
the NIST Gaithersburg precious metals custodians reported receiving any formal training on how
to manage their inventories and several of them stated that such training would be useful.
Finally, we found that several containers, each holding personal appeal precious metals worth
more than $5,000, were not connected to the NIST Police Services alarm system, as required by
NIST guidance (see page 5).



1
  Precious metals, such as gold, silver, platinum, palladium, rhenium, and iridium, are metals that have a high
monetary value in relation to their volume or weight. The first three examples are also referred to as personal appeal
precious metals because of their general appeal for use outside the workplace.
2
  U.S. Department of Commerce, Office of Inspector General, September 2006. Semiannual Report to Congress,
pages 6-7.
3
  We looked at property management only for the Logistics Group and not for all of NIST’s operations.
4
  We did not examine the precious metals inventory maintained at NIST’s Boulder campus.


                                                          i
                                           FOR OFFICIAL USE ONLY
U.S. Department of Commerce                                                                Final Report IPE-18321
Office of Inspector General               FOR OFFICIAL USE ONLY                                       March 2007

Property management procedures and controls are generally adequate, but the need for
some X-ray scanning equipment should be assessed. The Logistics Group is responsible for
processing incoming and outgoing packages per departmental and NIST procedures. The
group’s staff also operates a storeroom to provide NIST researchers and employees with supplies
and materials for scientific research and facilities maintenance. We found that property
management procedures and physical access controls for the shipping and receiving areas and
the storeroom are generally adequate. We also found minimal risk of theft, and the Emergency
Services Division chief told us there had been no reported thefts from the storeroom’s inventory
during fiscal years (FYs) 2003 through 2006. However, we noted a large X-ray machine located
in the Logistics Group’s receiving area that was intended for screening large packages or groups
of packages was not being used. We were told that there was not enough staff to operate the
machine and a separate, adequate security measure is now being used to screen package delivery
trucks. NIST spent approximately $65,000 to purchase the machine and the Logistics Group
incurs an annual cost of $5,500 to maintain it. NIST should assess the need for the X-ray
machine and either use it or dispose of it appropriately (see page 9).

The Logistics Group’s staffing, safety measures, and guidance on shipping and receiving
procedures could be strengthened. During our review of the Logistics Group’s operations, we
found the following issues that need management’s attention:

Staffing levels. We learned that current staffing levels impact operations and raise safety
concerns. As of December 2006, the Logistics Group had a total of 25 positions—an onboard
staff of 16 employees and 9 vacancies—that were fully funded.5 The 36 percent vacancy rate
means employees have to be shared among the shipping, receiving, storeroom, and property
management areas to satisfy workload requirements especially when someone is absent. This
results in some staff not being able to consistently perform their normal job duties and their
respective work areas having to compensate for the loss in manpower. The Logistics Group’s
managers acknowledged that vacancies require them to share staff among areas to satisfy
workload requirements. In addition, some physically demanding tasks are performed by only
one person because of the reduced staffing levels, yet the chief of the Safety, Health, and
Environment Division advised that it would be safer to have 2 individuals performing these
tasks. Following our exit conference on February 9, 2007, the Logistics Group’s supply
management officer informed us that four new, permanent employees had been hired since we
completed our fieldwork. However, given a problem with turnover and the lengthy process to
bring in new employees, NIST should continue to assess existing staff resources and positions
and ensure that the Logistics Group has adequate staffing to safely handle its daily operations.

Safety concerns. We also learned of additional safety concerns that should be addressed as soon
as possible by management. The Logistics Group’s staff told us of one safety issue regarding
needed repairs to the ground below the cylinder room loading dock6 where the surface is not
level. They also expressed an interest in receiving additional information in the safe handling of

5
  These positions are funded for FY 2007 in the Commerce Administrative Management System, the Department’s
integrated financial management system.
6
  The cylinder room loading dock is used to transport large, heavy gas cylinders between the cylinder storage room
and a delivery truck. It is separate from the main shipping and receiving loading docks.


                                                         ii
                                          FOR OFFICIAL USE ONLY
U.S. Department of Commerce                                                                 Final Report IPE-18321
Office of Inspector General                FOR OFFICIAL USE ONLY                                       March 2007

gases and chemicals that transit through or are stored in the Logistics Group. We believe these
problems warrant immediate management attention in order to avoid possible physical injuries.

Shipping and receiving guidance to NIST employees. Finally, we found that Logistics Group
staff must field a high volume of calls daily involving requests for shipping and receiving
information because many NIST employees are unaware of or ignore the agency’s shipping and
receiving procedures. In attending to these inquiries, the group’s staff members must take time
away from their responsibilities to process incoming and outgoing packages. It would help
minimize these disruptions if the group revised NIST’s shipping and receiving guidance and
better communicated the revised guidance to NIST employees (see page 12).

The Logistics Group’s procurement activities are generally sound, but its storeroom
inventory management system is inefficient and should be replaced. The Logistics Group is
responsible for stocking its storeroom with supplies and materials for NIST employees.
Acquisitions of supplies and materials for use by the divisions are made primarily through
purchase orders processed by the NIST Acquisition Management Division and to a limited extent
through the use of the group’s government purchase card. The Logistics Group also purchases
supplies and equipment for its own internal use mostly through the acquisitions process. We
reviewed a selection of the Logistics Group’s contract awards from FY 2003-2006 and found
that contract files contained written support for contract actions. However, our review of the
group’s FY 2006 government purchase card statements revealed some split purchases up to June
2006.7 While this no longer appears to be a problem, the Logistics Group’s purchase card
statements should be properly reviewed and signed by the cardholder and the approving official
to ensure accountability of purchases. In addition, the Logistics Group should assess its
purchasing needs and, if necessary, request training for its cardholder to allow for additional
purchasing options, such as an increase in the single purchase limit.

Finally, we found the Logistics Group cannot stock its storeroom efficiently, in part because the
inventory management computer system is dated and has limited capabilities. The system does
not allow staff to generate reports for items that are low in supply, so the staff visually monitors
the supply of items in the storeroom. The Logistics Group needs a new inventory management
system to efficiently manage storeroom inventory (see page 17).

On page 21, we provide a summary of recommendations to address our concerns.



NIST Response to OIG Draft Report and OIG Comments

In its written response to our draft report, NIST acknowledged the quality of our
recommendations and informed us that it has begun taking steps to address several of them.
Specifically, NIST stated that it has started work on safeguarding precious metals security
containers, providing additional training to its precious metals custodians, and ensuring that the

7
 “Split purchase” is the term used to describe the practice of dividing a single purchase requirement into more than
one transaction to avoid exceeding the micro-purchase limit, as set forth by the Federal Acquisition Regulation.


                                                         iii
                                          FOR OFFICIAL USE ONLY
U.S. Department of Commerce                                                    Final Report IPE-18321
Office of Inspector General          FOR OFFICIAL USE ONLY                                March 2007

Logistics Group is adequately staffed to perform its daily operations. In addition, NIST reported
that is has taken action to address the two safety concerns that we highlighted in our draft report.
However, NIST’s response did not address several of our recommendations. Specifically, it did
not provide any information on our recommendations that called for revising the precious metals
guidance, assessing the need for the large X-ray machine in the Logistics Group, and acquiring a
new storeroom inventory management system. NIST’s written response is included as an
appendix to this report. We ask that NIST address those recommendations, as well as provide a
status update on the recommendations it did address, in an action plan to be submitted within 60
calendar days of the date of this report.




                                                 iv
                                    FOR OFFICIAL USE ONLY
U.S. Department of Commerce                                                                         Final Report IPE-18321
Office of Inspector General                  FOR OFFICIAL USE ONLY                                             March 2007

                                                BACKGROUND

The Logistics Group, a unit of the Administrative
Services Division of the National Institute of                             Quick Facts:
Standards and Technology (NIST) in Gaithersburg,                                NIST
Maryland, provides a number of services to the              • Headquarters in Gaithersburg, MD, with a
institute. Led by the supply management officer, who          second location in Boulder, CO
also serves as NIST Gaithersburg’s property                 • Part of Commerce’s Technology
                                                              Administration
accountability officer, the group is responsible for the    • Fiscal Year 2006 budget of $930 million
institute’s management, inventory, utilization, records     • Staff level of 2,910 FTEs
management, and disposal of personal property. In           • Eight laboratories conducting physical
addition, it provides training for personal property          and engineering science research, often in
custodians. Working closely with other NIST                   collaboration with industry, academia, or
divisions (see Figure 1), the group provides general          other government agencies
packaging and shipping services and arranges
household moves for select employees and
researchers. It also operates a storeroom and specialty gas cylinder program to provide direct
supplies to NIST divisions, including lab equipment and materials, general office items, and
gases such as nitrogen, argon, and helium.

  Figure 1. Logistics Group’s Functions and Interaction with NIST Divisions

         Emergency Services                        Administrative                             Finance Division
              Division                            Services Division
                                                                                           Initiates, coordinates, and
       NIST Police Services screens             The division chief is NIST’s              observes annual inventory of
       delivery trucks                         property management officer.              personal property and precious
                       Text Redacted
                                                                                                      metals.




     Receiving: After NIST Police                                                           Property Management:
     Services screens delivery                                                              Updates the NIST personal
     trucks, receiving staff                Receiving                Property
                                                                                            property database and
     processes packages, places                                     Management              coordinates with the Finance
     bar codes on personal                                                                  Division on precious metals
     property, and makes                                                                    and personal property
     deliveries to NIST employees.
                                                        Logistics                           inventories.
                                                         Group
                                             Traffic                Storeroom
                                             Management
                                                                                                           NIST Property
                                                                                                            Custodians



         NIST                Traffic Management: Supports          Storeroom: The storeroom                     NIST
      Employees              NIST employees with shipping          provides lab equipment, office            Employees
       and Units             services and arranges household       items, and cylinder gases that             and Units
                             moves for select employees and        are used by NIST employees.
                             researchers.


  Source: Office of Inspector General




                                                               1
                                            FOR OFFICIAL USE ONLY
U.S. Department of Commerce                                                                 Final Report IPE-18321
Office of Inspector General                 FOR OFFICIAL USE ONLY                                      March 2007

During the final quarter of each fiscal year, the Logistics Group conducts an annual inventory of
personal property and of precious metals in coordination with NIST’s Finance Division.
Precious metals, such as gold, silver, platinum, palladium, rhenium, and iridium, are metals with
a high monetary value in relation to their volume or weight. NIST’s scientists use a variety of
precious metals in research projects, including the “personal appeal” metals such as gold, silver,
and platinum.8 The institute’s inventory of precious metals was valued at approximately $1.2
million at the end of fiscal year (FY) 2006. In addition to conducting the precious metals
inventory with the Finance Division, the Group helps NIST divisions dispose of excess precious
metals as needed.

In recent years, organizational and staff changes have affected the Logistics Group’s structure
and operations. In 2004, NIST underwent reorganization, and the group was moved from the
Acquisitions and Logistics Division to the Administrative Services Division. Since then,
retirements, divisional transfers, and an agency force reduction decreased the group’s staff from
27 to 16 (as of December 2006). The current supply management officer and current chief of the
Administrative Services Division were appointed to their positions in October 2005 and June
2006, respectively.




8
 Personal appeal precious metals are referred to as such because of their general appeal for use outside the
workplace. Precious metals in general are purchased by individual NIST laboratories for use in research.


                                                          2
                                           FOR OFFICIAL USE ONLY
U.S. Department of Commerce                                                    Final Report IPE-18321
Office of Inspector General                  FOR OFFICIAL USE ONLY                        March 2007

                         OBJECTIVES, SCOPE, AND METHODOLOGY

The purpose of our review was to assess select internal controls of the Logistics Group of the
Administrative Services Division of NIST as part of the Inspector General’s effort to strengthen
internal controls over financial and programmatic processes within the Department. The
Inspector General has determined this effort to be one of the Department’s Top 10 Management
Challenges.

Our objectives in this review were to:

•      Assess the Logistics Group’s property management procedures, including those for the
       precious metals inventory, and physical access controls for NIST’s personal property storage
       areas within the Logistics Group;
•      Assess the adequacy of the Logistics Group’s security procedures; and
•      Determine whether the Logistics Group complies with federal and departmental acquisition
       policies and procedures, specifically those involving the use of purchase cards and contracts
       for equipment and services.

To fulfill our objectives, we interviewed all 18 employees of the Logistics Group staff in
Gaithersburg.9 We also met with the Chief Financial Officer, the Administrative Services
Division chief, and the Emergency Services Division chief and their staffs, staff from the
Acquisition Management Division, and NIST employees who serve as precious metals
custodians. At Commerce headquarters, we met with the Assistant Director of the Anti-
Terrorism Division in the Department’s Office of Security.

We reviewed the following documents for the period FY 2003 through FY 2006:

•      Personal property records for the Logistics Group and precious metals inventories from NIST
       divisions in Gaithersburg and Boulder;
•      Records detailing the use and disposal of precious metals by NIST employees;
•      Contract award files for the Logistics Group’s acquisitions;
•      Logistics Group’s government purchase card documentation;
•      Guidance on physical access controls and security procedures for NIST precious metals and
       personal property storage areas;
•      Federal, departmental and NIST policies and guidance on property management;
•      Federal and departmental regulations on procurement and government purchase card use;
       and,
•      Reports on NIST logistics and acquisition operations from the Commerce Office of Inspector
       General and the Government Accountability Office.

We conducted our fieldwork at NIST Gaithersburg from October 3 through December 8, 2006,
under the authority of the Inspector General Act of 1978, as amended. The evaluation was
conducted in accordance with the Quality Standards for Inspections issued by the President’s

9
    During the course of our review, two employees left the group.


                                                           3
                                            FOR OFFICIAL USE ONLY
U.S. Department of Commerce                                                Final Report IPE-18321
Office of Inspector General        FOR OFFICIAL USE ONLY                              March 2007

Council on Integrity and Efficiency in 2005. At the end of our review, we discussed our findings
with the Deputy Director and other appropriate officials at NIST.




                                               4
                                   FOR OFFICIAL USE ONLY
U.S. Department of Commerce                                                               Final Report IPE-18321
Office of Inspector General                 FOR OFFICIAL USE ONLY                                    March 2007

                              OBSERVATIONS AND CONCLUSIONS

I.         Management Should Address Several Issues Involving NIST’s Precious Metals
           Inventory

We found that the precious metals guidance needs to be revised in certain areas, and that training
for precious metals custodians should be provided to strengthen inventory maintenance. In
addition, we found that several containers, each holding personal appeal precious metals worth
more than $5,000, were not connected to the NIST Police Services alarm system, as required by
the guidance.

A. NIST’s guidance and training for precious metals custodians should be improved

NIST’s precious metals, in the forms of wire, powder, liquids, and pellets, are kept in several
locked containers located on both the Gaithersburg and Boulder campuses (see Figure 2). These
containers are managed by precious metals custodians, usually NIST researchers who assume
this duty as an added responsibility.10

Figure 2. Different Forms of Precious Metals




              Gold Wire                          Silver Powder                   Platinum Concentrate
Source: Office of Inspector General


Every year, the Logistics Group and the Finance Division conduct an inventory of all precious
metals. We found no material (i.e. significant) discrepancies in NIST Gaithersburg’s precious
metals inventories. Our finding was based on our review of inventory records from FY 2003
through FY 2006, spot checks of custodians’ inventories, and interviews with various individuals
including six precious metals custodians, staff from the Logistics Group, the Finance Division,
and the Emergency Services Division chief. Final precious metals inventory reports, issued by
the Logistics Group and approved by NIST’s Property Board of Review, adequately reported
transactions of metals, which were purchased, transferred to other divisions, or disposed of as
excess.




10
     Our review did not examine the precious metals inventory maintained at NIST’s Boulder campus.


                                                         5
                                           FOR OFFICIAL USE ONLY
U.S. Department of Commerce                                                              Final Report IPE-18321
Office of Inspector General               FOR OFFICIAL USE ONLY                                     March 2007

However, we found the precious metals guidance lacked certain procedures relevant to inventory
maintenance and was outdated in several instances.11 For example, the guidance does not
contain procedures for (1) the purchase of new precious metals, (2) ensuring that new purchases
of precious metals by the divisions are promptly reported to a precious metals custodian, and (3)
disposing of excess precious metals. Several custodians told us that employees in their divisions
had not reported precious metals purchases that were made throughout the year until they
contacted them to inquire about purchases during the annual inventory process. The custodians
attributed these instances to the employees’ lack of understanding about precious metals
inventory procedures. Some custodians were unaware of procedures or the point of contact for
disposing of excess precious metals if the need arose. In addition, the reorganization that
brought the Logistics Group under the Administrative Services Division is not reflected, and the
guidance still refers to a central precious metals storeroom operated by the Logistics Group,
despite the fact that the group disposed of its precious metals in 2004. Revisions to the guidance
to address these problems would help NIST employees better understand procedures for handling
precious metals and assist the custodians with their reporting duties.

All but one of the six custodians we interviewed were researchers. None had received any
formal custodian training. Four said training would be useful, particularly if the custodian is not
familiar with the use of the metals in research activities. The remaining two said they did not
need training to carry out this responsibility. All six custodians learned how to maintain their
individual precious metals inventory mainly through their own interpretations of the precious
metals guidance or through assistance from their predecessors. We found that they have
different styles of keeping records, using different spreadsheets and logs, and of classifying the
status of metals. The custodian we spoke to who is not a researcher was unfamiliar with the
terminology used for classifying metals. Two of the custodians did not keep individual receipts
for borrowed metals, but instead required researchers to sign their logs noting which metals were
taken from their inventories. Different recordkeeping practices and misclassification of metals
could result in inaccurate inventories.

B. Several precious metals containers are not connected to the NIST Police Services alarm
   system

The precious metals guidance states that containers with inventories of personal appeal precious
metals valued at over $5,000 should be connected to the NIST alarm system and monitored by
NIST Police Services. The six precious metals custodians that we interviewed at NIST
Gaithersburg each maintained inventories of personal appeal precious metals exceeding this
value during FY 2006. The containers are all located inside individual laboratories or
workspaces and the doors to these areas are locked when not in use. One custodian’s container
was located in a room with card reader-controlled access and monitored by NIST Police




11
  The guidance, dated January 15, 2004, is contained in Subchapter 7.09 of the NIST Administrative Manual and is
accessible by NIST staff via their intranet at www.i-nist.gov.


                                                        6
                                         FOR OFFICIAL USE ONLY
U.S. Department of Commerce                                                               Final Report IPE-18321
Office of Inspector General                FOR OFFICIAL USE ONLY                                     March 2007

Services, but the containers controlled by four other custodians were not connected to the alarm
system.12

We were particularly concerned that one container, which contained approximately $262,000
worth of personal appeal precious metals, was not connected to the alarm system. We informed
the Emergency Services Division chief of this in early November 2006, and he instructed an
employee to locate all security containers at NIST, including those containing precious metals.
On December 5, we informed the chief that three other custodians we had spoken to during our
review also had containers not hooked up to the NIST alarm system. At this meeting, the chief
said that he was in the process of moving the container with $262,000 worth of metals to a room
whose access would be restricted by a card reader and monitored by NIST Police Services. The
Emergency Services Division chief said he prefers putting an alarm on the door to the room
housing a container rather than on the container itself because of the possibility of false alarms if
the container is inadvertently bumped. Alarming the door would also restrict the number of
people with access to the room where the metals are stored. This measure appears to meet the
intent of the guidance and should be incorporated into any revision of the precious metals
guidance. The Emergency Services Division chief said he will take appropriate action to
safeguard precious metals inventories once he obtains the relevant information about NIST’s
security containers.

Recommendations:

The Director of the National Institute of Standards and Technology should ensure that the
following actions are taken:

•    Revise NIST’s guidance on precious metals to include procedures relevant to inventory
     maintenance and to reflect current organizational information.

•    Provide training to NIST’s precious metals custodians.

•    Properly safeguard security containers with personal appeal precious metals valued in excess
     of the threshold specified in NIST’s guidance.



NIST Response to OIG Draft Report and OIG Comments

In its written response to our draft report, NIST stated that it has begun taking action to safeguard
its precious metals containers and provide additional training to its precious metals custodians.
We appreciate NIST’s efforts to date in addressing these two issues. However, the response did
not address our recommendation to update the current precious metals guidance contained in the
NIST Administrative Manual. We reiterate the importance of this recommendation and request

12
  The sixth custodian maintained custody of personal appeal precious metals worth over $5,000, but stored most of
his inventory in another custodian’s container that held a similar amount of personal appeal precious metals. This
container was not connected to the alarm system.


                                                        7
                                          FOR OFFICIAL USE ONLY
U.S. Department of Commerce                                                Final Report IPE-18321
Office of Inspector General         FOR OFFICIAL USE ONLY                             March 2007

that NIST update us on efforts to improve its precious metals maintenance and guidance in its
action plan.




                                               8
                                   FOR OFFICIAL USE ONLY
U.S. Department of Commerce                                                 Final Report IPE-18321
Office of Inspector General         FOR OFFICIAL USE ONLY                              March 2007

II.    Property Management Procedures Are Generally Adequate, but the Need for a
       Large X-ray Scanning Machine Should Be Assessed

Shipments from various package and freight carriers arrive daily at the Logistics Group’s
shipping and receiving area for processing. The group’s staff makes deliveries twice a day
throughout NIST Gaithersburg. The Logistics Group’s storeroom is open during business hours
for NIST staff to obtain supplies and materials. We found the Logistics Group has adequate
property management procedures and physical access controls in place to process incoming and
outgoing packages at its main workspaces. However, a large X-ray machine intended for
screening large packages or groups of packages is not being used.

A. Property management procedures and physical access controls within the Logistics Group
   are generally adequate

We found the Logistics Group staff uses appropriate property management procedures, which
are available to them in a hard copy procedures manual, to process incoming and outgoing
packages. The Logistics Group’s shipping and receiving areas are staffed continuously during
business hours. The receiving staff processes incoming packages and accounts for any personal
property before delivering the items to NIST employees. Most packages are delivered to the
NIST addressee the same business day as arrival. Very few packages are stored overnight in the
receiving area.

To assess physical access controls, we conducted several walkthroughs of the shipping and
receiving areas, including one with the Emergency Services Division chief. Based on our
walkthroughs and his input, we found minimal risk of theft. Staff members told us and we
confirmed that they immediately confront any unknown persons in the areas. We also found the
group’s storeroom was manned continuously during business hours and that most employees
only visit the storeroom to obtain supplies. We were told of two inventory discrepancies, but the
Logistics Group staff thought they were most likely the result of data entry errors. Neither the
staff nor the chief of the Administrative Services Division reported any unusual deviations in
storeroom inventory. In addition, the Emergency Services Division chief informed us that there
were no reports of theft from the storeroom’s inventory between FYs 2003 and 2006.

We conducted a spot check of personal property assigned to the Logistics Group. We verified
that the items we selected from a listing downloaded from the NIST personal property
management system were still assigned to and under the custody of the Logistics Group.
However, the locations of a few items in the group, such as laptops and hand-held devices, did
not correspond to the exact locations as noted in the system. Once informed, the supply
management officer promptly updated the system to reflect the actual locations of the personal
property items about which we inquired.

NIST is currently conducting a complete inventory of all its personal property. This effort began
in mid-November 2006 and is scheduled for completion in the spring of 2007. In support of this
effort, the supply management officer, who also serves as NIST Gaithersburg’s property
accountability officer, provided property custodian training for NIST employees during
November and December 2006 in both Gaithersburg and Boulder. The chief of the


                                                9
                                   FOR OFFICIAL USE ONLY
U.S. Department of Commerce                                                             Final Report IPE-18321
Office of Inspector General               FOR OFFICIAL USE ONLY                                    March 2007

Administrative Services Division, who is also NIST’s property management officer, told us that
he was revising NIST’s internal property management guidance to promote greater property
accountability within the operating units. We anticipate that these efforts will help further
strengthen NIST’s internal controls over personal property.

B. The Logistics Group rarely operates its large X-ray scanning machine

The Logistics Group has one small and one large X-ray machine in the receiving area that may
be used to screen incoming packages. Staff members told us they         Text Redacted
                                            Text Redacted
general guidance for using the small machine to screen                  Text Redacted

               Text Redacted                         Packages that meet these criteria,
,    Text Redacted               are screened. A separate measure utilizing            Text Redacted
      Text Redacted          that is operated by a team of two security clerks from the Emergency
Services Division is being used to screen package delivery trucks              Text Redacted

                            Text Redacted


The large X-ray machine was purchased in 2003 for approximately $65,000 to screen larger
packages or groups of packages on a skid. Staff members told us the large X-ray machine has
only been operated a few times in the 3 years it has been at NIST. They said at least three
employees would be needed to operate the machine on a regular basis. Considering the current
staffing levels and volume of incoming packages, which is several hundred per day, it would be
difficult to ensure three people are available to operate the machine. In addition, we were told
that the layout of the receiving area does not allow staff to efficiently load and unload packages
onto and off the large X-ray machine using a motorized forklift or other loading equipment. Yet,
the Logistics Group is incurring annual costs of $5,500 on a maintenance contract that runs until
July 31, 2007, for the unused machine.

In 1995 after the bombing of the Alfred P. Murrah Federal Building in Oklahoma City,
Oklahoma, the Department of Justice issued guidelines13 stating that Level IV facilities, such as
NIST Gaithersburg, should require X-ray screening of all mail and packages.14 The Emergency
Services Division chief acknowledged that the Logistics Group           Text Redacted
     Text Redacted    He said using specialized equipment              Text Redacted
                            Text Redacted                                 meets the intent of the
package screening guidelines without slowing down the work of the Logistics Group staff.

The Assistant Director for Anti-Terrorism in the Department’s Office of Security said it is not
always feasible to screen all incoming packages, though it would be preferable. He said that a
facility’s security manager can meet the intent of the guidelines if he or she implements a

13
   These guidelines are incorporated into the Department of Commerce’s Manual of Security Policies and
Procedures as Appendix K: Department Of Justice Standards for Protection of Federal Facilities, dated April 4,
2003.
14
   The NIST mailroom, which operates separately from the Logistics Group, screens all mail and packages with an
X-ray machine.




                                                       10
                                         FOR OFFICIAL USE ONLY
U.S. Department of Commerce                                                    Final Report IPE-18321
Office of Inspector General          FOR OFFICIAL USE ONLY                                March 2007

measure to mitigate the threat        Text Redacted                   of incoming packages. He
told us that the Emergency Services Division’s                           Text Redacted
                                  Text Redacted                                     meets the intent
of the guidelines.

We raised the issue of the unused X-ray machine with the supply management officer and the
chief of the Administrative Services Division, and they said they would look into whether use of
the large X-ray machine was needed in the receiving staff’s operations. In a separate meeting,
the Emergency Services Division chief told us that he would like to keep the large X-ray
machine in case certain threat level conditions occur. He added that the security clerks from his
division would operate the machine under these circumstances. Because there is some
uncertainty about whether the large X-ray machine is needed, we suggest that the supply
management officer and the chiefs of the Administrative Services and Emergency Services
Divisions, in consultation with the Department’s Office of Security, decide whether the Logistics
Group’s large X-ray machine is needed and if it is, specify procedures and staff for its use. If the
machine is not needed, NIST should dispose of it appropriately.

Recommendation:

The Director of the National Institute of Standards and Technology should ensure that the
following actions are taken:

Determine whether the Logistics Group’s large X-ray machine is needed. If it is, define the roles
and responsibilities of the Logistics Group and the Emergency Services Division with respect to
its use, provide adequate training to appropriate staff on how to operate the machine, and use it
to screen the appropriate items. If it is not needed, transfer the machine to another part of the
Department or otherwise dispose of it appropriately.



NIST Response to OIG Draft Report and OIG Comments

NIST’s written response to our draft report did not address our recommendation regarding the
continued need for the large X-ray machine in the Logistics Group. We acknowledge that such a
decision requires careful deliberation among officials at NIST and the Department’s Office of
Security. We would appreciate an update on the status of this decision in the action plan.




                                                  11
                                    FOR OFFICIAL USE ONLY
U.S. Department of Commerce                                                         Final Report IPE-18321
Office of Inspector General             FOR OFFICIAL USE ONLY                                  March 2007

III.    The Logistics Group’s Staffing, Safety Measures, and Guidance on Shipping and
        Receiving Procedures Could Be Strengthened

We assessed the Logistics Group’s operations and found that current staffing levels impact
operations and raise some safety concerns. We also found that management needs to address
safety concerns involving (1) an uneven gas cylinder room loading dock and (2) employee
requests for additional information on handling hazardous materials. Finally, we found that the
Logistics Group staff is often sidetracked from processing incoming and outgoing packages
because of repeated inquiries for information and insufficient shipping and receiving guidance
available to NIST employees.

A. Current staffing levels impact operations and raise safety concerns

As of December 2006, the Logistics Group had a staff of 16 employees with 9 vacancies, a total
of 25 positions, all of which are fully funded (see Figure 3).15

             Figure 3. Logistics Group Staffing Levels – December 2006
             Area                       Current Staffing Level         Vacancies
             Shipping                             2                       1
             Receiving                             5                      4
             Property Management                   6                      2
             Storeroom                             3                      2
             Total                                16                      9
             Source: Administrative Services Division and Human Resources Division, NIST

However, the high number of vacancies means staff must often be shared among the Logistics
Group’s shipping, receiving, storeroom, and property management areas to fulfill workload
requirements, especially when employees are absent on sick, annual, or other leave. This results
in some staff not being able to consistently perform their normal job duties and their respective
work areas having to compensate for the loss in manpower. This issue of reduced staffing,
which Logistics Group management acknowledges as a concern, is more pronounced in the
receiving area. In addition to existing vacancies, one of the employees assigned to the receiving
area has been assisting with shipping duties because of a heavy workload there. This has
effectively further reduced the number of receiving area employees.

Current staffing levels pose safety concerns involving the transport of heavy equipment and
furniture. Staff told us that one person regularly loads and delivers filled gas cylinders that
weigh several hundred pounds each, and they were concerned about it. In May 2006, an
employee was injured attempting to manage a cylinder alone. Since then, an additional staff
member has assisted with these duties when workloads permit, but one person regularly
continues to deliver cylinders alone. The chief of the Safety, Health, and Environment Division
and her staff told us that it would be prudent to have two staff members transporting cylinders.


15
  These positions are funded for FY 2007 in the Commerce Administrative Management System, the Department’s
integrated financial management system.


                                                    12
                                       FOR OFFICIAL USE ONLY
U.S. Department of Commerce                                                                  Final Report IPE-18321
Office of Inspector General                 FOR OFFICIAL USE ONLY                                       March 2007

Similarly, we found that one person is largely responsible for transferring excess furniture and
lab equipment at NIST Gaithersburg. While this staff member can request help from others to
move items, in practice, he does not have regular daily support and often moves these heavy
items alone.

Although candidates were interviewed for Logistics Group positions prior to December 2006,
only three were hired. Moreover, four employees left the group in 2006, including two who left
during our review. The group’s staff and the former supply management officer reported that the
two largest obstacles for recruiting and hiring new employees are salary and promotion potential.
In 2004, several positions were downgraded when management reorganized the group as part of
an A-76 cost comparison.16 The former supply management officer informed us that the results
of this review contributed to a turnover problem within the group. As a result, employees are
limited in salary potential, and there is less incentive for recent hires to improve their skills or
stay.

After our exit meeting on February 9, 2007, with NIST officials to discuss our findings, the
Logistics Group’s supply management officer informed us that four new, permanent employees
had been hired since the completion of our fieldwork. The receiving area has two new
employees while shipping and the storeroom each have one. The supply management officer
also informed us that NIST’s Office of Human Resources Management was in the process of
completing candidate certifications needed to fill two additional staff vacancies in receiving. We
anticipate that these efforts will improve the group’s operations. However, given a problem with
turnover and the lengthy process to bring in new employees, the supply management officer and
the Administrative Services Division chief should continue to assess existing staff resources and
positions and ensure that the Logistics Group has adequate staffing to safely handle its daily
operations.

B. Additional safety concerns warrant management attention

Management should immediately address two safety concerns brought to our attention by
Logistics Group staff. First, the ground below the cylinder room’s loading dock is uneven,
which causes the cylinder delivery truck’s backlift to rest unevenly on the dock. That causes a
hazard when cylinders are loaded and unloaded. Staff members used to place a metal plate over
the backlift to create a level surface (see Figure 4 on the following page). But that “fix” was
unsafe as well, so they began loading and unloading cylinders from the regular shipping and
receiving docks. This means both gas cylinders and packages are loaded and unloaded from the
same docks. The cylinder room’s loading dock is separate from the shipping and receiving area
and is better situated for transporting cylinders because it adjoins the cylinder room. Yet, it lies
unused due to the uneven ground below it.

We notified the NIST Safety, Health and Environment Division about this during our review.
They said they would look into the situation further. In August and October 2006, the traffic

16
  The Office of Management and Budget released Circular A-76 as federal policy regarding the performance of
commercial activities. The circular requires agency heads to review in-house commercial activities to ensure they
are performed at an estimated cost that is lower than the cost for a qualified contractor or other commercial source.


                                                          13
                                           FOR OFFICIAL USE ONLY
U.S. Department of Commerce                                                                  Final Report IPE-18321
Office of Inspector General                 FOR OFFICIAL USE ONLY                                       March 2007

management staff supervisor contacted the NIST Plant Division to fix this hazard. But as of
December 2006, the ground below the cylinder room loading dock had not been repaired. The
Plant Division chief informed us that his staff recently completed a plan to fix the problem and is
moving forward to secure a contractor through the acquisitions process to perform the work. The
Plant Division should repair the
ground below the cylinder room        Figure 4. Cylinder Room Loading Dock.
loading dock as soon as possible
and take any other actions
necessary to ensure that the
cylinder room loading dock is
safe for operation.
                                                                               The cylinder truck’s backlift does not
                                                                                   lie level on the loading dock
Second, we believe additional                                                              (right, above)
information on the safe handling
                                                  Staff sometimes uses a metal plate to create
of hazardous materials should be                    a level surface to load cylinders (below).
provided to the Logistics Group.
Relevant staff members have had
hazardous material training. Yet
some staff members told us they
would like additional information
describing the risks and hazards
of chemicals and gases stored and
delivered by the group in order to
be fully aware of potential          Source: Office of Inspector General
hazards and avoid any mishaps
when handling these materials. We believe that additional safety information should be
disseminated to the Logistics Group staff to raise awareness of possible hazards involving
chemicals and gases handled by the staff and to help avoid accidents.

C. NIST employees are not adequately informed about shipping and receiving procedures

The Logistics Group’s staff must process incoming personal property and outgoing domestic and
international shipments according to departmental and NIST policies. This includes ensuring
that accountable property has bar codes for NIST’s personal property inventory records prior to
delivery. Since deliveries are usually made in bulk quantities, staff must sort each package for
X-ray requirements, delivery location, bar code tagging, and other special considerations.17

However, staffers told us they routinely receive a high volume of telephone inquiries about
shipping and receiving procedures from NIST employees who (1) are unfamiliar with shipping
and receiving procedures and (2) do not understand that delivery times, which are guaranteed by
certain carriers for certain times of the day, only apply to the packages arriving at the receiving

17
   Some special considerations include: (1) computers that need to go to NIST technicians for software installation
prior to delivery, (2) radioactive materials that need to be isolated from other deliveries, and (3) priority delivery
items that must remain frozen or otherwise be delivered quickly because they are perishable, or have arrived through
overnight/urgent service.


                                                         14
                                           FOR OFFICIAL USE ONLY
U.S. Department of Commerce                                                  Final Report IPE-18321
Office of Inspector General          FOR OFFICIAL USE ONLY                              March 2007

area and not to their respective office(s). Employees who call the receiving area often want staff
to search for their individual packages and provide a status update. Employees who call often do
not have necessary information, such as a tracking number, the name of the person who ordered
the item, or the addressee’s contact information, to help the staff locate the package quickly,
even though a recording on the group’s main phone line instructs callers to have that information
available. As a result, staff must stop processing packages and spend time locating individual
employee packages.

The group also receives numerous inquiries from NIST employees involving shipping
procedures and requirements. The online NIST Administrative Manual informs employees that
the Logistics Group processes outgoing shipments, and it includes a link for additional
information on foreign country shipping requirements. However, many employees call the
shipping area to ask whether the Logistics Group is the proper unit for shipping outgoing
packages and inquire about specific packaging and shipping requirements. The calls are frequent
and disrupt the group’s operations by requiring the staff to stop processing shipments to respond
to a high volume of inquiries. To correct these problems, management of the Logistics Group
should revise the current, written guidance on its shipping and receiving requirements and
effectively communicate it to NIST employees (via a ‘Frequently Asked Questions’ guide on
NIST’s intranet, for example) to minimize disruptions to the group’s operations.

Recommendations:

The Director of the National Institute of Standards and Technology should ensure that the
following actions are taken:

•   Continue to assess existing staff resources and positions and take appropriate action to ensure
    that the Logistics Group has adequate staffing to safely handle its daily operations.

•   Repair the ground below the Logistics Group’s cylinder room loading dock as soon as
    possible and take any other actions necessary to ensure that the cylinder room loading dock is
    safe for operation.

•   Provide the Logistics Group staff with additional safety information on the chemicals and
    gases that they handle.

•   Revise the Logistics Group’s written shipping and receiving guidance currently provided to
    NIST employees and better communicate the revised guidance to them.



NIST Response to OIG Draft Report and OIG Comments

In its written response to our draft report, NIST reported that its Safety Office and Office of
Environmental Compliance are providing immediate training to the Logistics Group staff on the
safe handling of gases and chemicals. NIST further stated that formal safety training would be
provided to the staff by the Public Health Service’s Federal Occupational Health Office in April

                                                15
                                    FOR OFFICIAL USE ONLY
U.S. Department of Commerce                                                 Final Report IPE-18321
Office of Inspector General         FOR OFFICIAL USE ONLY                              March 2007

2007. In addition, NIST said that it is preparing a contract with a vendor that will make the
necessary road improvements to the cylinder room loading dock area. We hope that these repairs
are completed in a timely manner. We look forward to an update on the repairs in NIST’s action
plan.

We note that NIST has begun to address the Logistics Group’s staffing needs to enable it to
perform its daily operations. We ask that the bureau report on the final result of NIST’s
assessment of the group’s staffing requirements in its action plan. Finally, NIST’s response did
not address our recommendation about providing revised shipping and receiving guidance to
NIST employees. We believe that this will help strengthen the group’s operations and request
that NIST address it in its action plan.




                                               16
                                   FOR OFFICIAL USE ONLY
U.S. Department of Commerce                                                               Final Report IPE-18321
Office of Inspector General               FOR OFFICIAL USE ONLY                                      March 2007

IV.     The Logistics Group’s Procurement Activities Are Generally Sound, but Its Own
        Storeroom Inventory Management System Is Inefficient and Should Be Replaced

The Logistics Group is responsible for stocking its storeroom with supplies and materials that are
used by NIST staff for scientific research and facilities maintenance. These acquisitions are
largely made through purchase orders processed by NIST’s separate Acquisition Management
Division. However, there are occasions when the supply management officer uses his
government purchase card (which is subject to a single transaction limit of $2,500) to resupply
items quickly or meet an urgent request by a NIST scientist or employee. The Logistics Group
also purchases its own supplies and equipment, mostly through the acquisitions process. While
we found no obvious problems with the Logistics Group’s contract awards, we found evidence
of “split purchases”18 stemming from the use of the group’s government purchase card. We also
found that the Logistics Group was unable to stock its storeroom efficiently because its inventory
management computer system has limited capabilities.

A. The Logistics Group’s contract awards appear to comply with applicable federal
   procurement regulations, but previous government purchase card statements revealed split
   purchases

Between FY 2003 and FY 2006,19 the Acquisition Management Division processed 50 contract
awards with a variety of vendors for the Logistics Group. We reviewed 10 of the 50 contract
awards, which covered the purchase of items and services such as communications equipment,
an office printer, rent for cylinders containing specialty gases used by researchers for scientific
experiments, heavy duty industrial equipment, equipment maintenance, and package shipping
services. We examined whether contract awards were properly competed and awarded and
found that contract files contained written support for contract actions as called for by Parts 6,
12, and 13 (Competition Requirements, Simplified Acquisitions Procedures, and Acquisition of
Commercial Items) of the Federal Acquisition Regulation.

Several of the contract awards were sole source procurements, and we found that the award files
contained adequate justification for sole source contracting.20 There were several contract
awards that required competitive bids from at least three vendors. Those files contained
adequate documentation detailing each individual vendor’s bids or contained documentation
noting a vendor’s decision not to bid or failure to submit a bid by the solicitation’s deadline. For
each solicitation requiring competition, the contract award was given to the lowest or the sole
bidder.

18
   “Split purchase” is the term used to describe the practice of dividing purchase requirements into more than one
transaction to avoid exceeding the micro-purchase limit, as set forth by the Federal Acquisition Regulation. The
micro-purchase limit was raised from $2,500 to $3,000, per Section 807 of the Ronald W. Reagan National Defense
Authorization Act for Fiscal Year 2005 (Public Law 108-375) and implemented by Federal Acquisition Circular
2005-13, effective September 28, 2006.
19
   Because NIST’s electronic procurement system, the Commerce Standard Acquisition and Reporting System
(CSTARS), was taken offline for upgrading for nearly 1 month starting September 18, 2006, no contract awards
were processed between September 15, 2006 and September 30, 2006, the end of FY 2006.
20
   Written justification is required on Commerce Department (CD) form 492, Justification for Other Than Full and
Open Competition, which is part of the contract file.


                                                        17
                                          FOR OFFICIAL USE ONLY
U.S. Department of Commerce                                                            Final Report IPE-18321
Office of Inspector General               FOR OFFICIAL USE ONLY                                   March 2007

We also reviewed the group’s purchase card statements from December 2005 through October
2006 and found several purchases were split into multiples to avoid exceeding the micro-
purchase limit. We found at least 20 transactions out of the 108 from that period that appear to
involve split purchases. We confirmed that at least 6 of these transactions involved 3 instances of
split purchases (see Figure 5 for two examples). The majority of the remaining 14 transactions
appeared questionable because they occurred either on the same day or within one day of each
other. The majority of the original credit card statements containing these transactions were not
signed by the cardholder, and none were signed by the approving official. However, statements
dated after June 2006 did not indicate split purchases and were reviewed and signed by both the
cardholder and approving official.

 Figure 5. Examples of Split Purchases

      Vendor 1                  Transaction 1      Date:    February 9, 2006            Amount: $2,443.00
   Fulfilled 2 orders           Transaction 2      Date:    February 9, 2006            Amount: $1,105.80
   to meet a single
   requirement.         Time lapse between transactions:    Same day     Total Purchase Amount: $3,548.80



      Vendor 2                  Transaction 1      Date: February 28, 2006             Amount: $1,772.24
   Fulfilled 2 orders           Transaction 2      Date:      March 1, 2006            Amount: $1,284.08
   to meet a single
   requirement.         Time lapse between transactions:      1 day      Total Purchase Amount: $3,056.32


 Source: Office of Inspector General

NIST guidance states that if a requirement exceeds the cardholder’s single purchase limit (which
in this case equaled the micro-purchase limit of $2,500), the cardholder cannot purchase the
requirement through multiple transactions. This type of activity creates a split purchase and is
prohibited by federal regulations. To ensure accountability of purchases, the Department and
NIST require bank cardholders to verify purchases and sign their monthly statements, which are
then reviewed and signed by an approving official. After interviewing relevant staff and
reviewing documents, we were not given explanations as to why split purchases occurred or why
some statements we reviewed were not properly signed. The previous cardholder, who had
completed the training required for all NIST cardholders, is no longer employed at NIST and,
therefore, could not explain the purchases in question. In June 2006, a new cardholder assumed
responsibility for the Logistics Group purchase card, which might explain the change in purchase
activities. The approving official for both cardholders explained that he regularly reviews and
signs users’ credit card statements. However, he could not explain why the statements we
reviewed from the previous cardholder did not have his signature.

Given the Logistics Group’s responsibility to purchase storeroom supplies to meet NIST-wide
needs, the supply management officer should assess the group’s purchasing demands. If
necessary, he should request additional acquisition training for future cardholders to allow for
additional purchasing options and reduce the potential for split purchases. One option might be
to increase the single purchase limit on the cardholder’s government credit card beyond the
micro-purchase limit, after appropriate training is completed. Also, both the purchase cardholder


                                                       18
                                         FOR OFFICIAL USE ONLY
U.S. Department of Commerce                                                                    Final Report IPE-18321
Office of Inspector General                   FOR OFFICIAL USE ONLY                                       March 2007

and approving official should review and sign each card statement to help ensure that split
purchases do not occur in the future.

B. The storeroom’s inventory management system limits the staff’s ability to purchase
   supplies efficiently

The Logistics Group’s storeroom staff uses a DOS-based computer system to track its inventory,
including gases for its specialty gas cylinder program. Usually, the supply management officer
submits a purchase order request for supplies after the storeroom staff informs him that supplies
are low or out of stock. We found the storeroom’s inventory management system has
contributed to supply shortages. The system is query-based and able to provide only basic item
information, such as a description, the number of units currently in stock,21 and the item’s last
purchase order date (during the previous 18 months). However, the system cannot generate a list
of items that are running low in quantity, nor can it notify staff if items fall below a certain
quantity. The system can only generate a report showing items that are at zero balance. Staff
members typically assess the storeroom’s needs by visually identifying items that are low in
supply or by knowing how often certain items are used and need to be replenished.

The system may also be the source of deviation in storeroom inventory records because it
sometimes generates errors during updates. A contractor from NIST’s Application Systems
Division regularly performs system updates to register new sales data and adjust inventory
records to reflect recent sales. Sometimes the contractor’s updates do not take effect because of
an unresolved glitch in the computer system. As a result, the contractor sometimes notices
inaccurate data in the system. If the contractor is unable to correct data during subsequent
updates, the result can lead to an inaccurate storeroom inventory.

The group staff, division chief, and the division’s previous acting chief22 each told us that the
system is not user-friendly, only minimally assists storeroom operations, and may be the source
of deviations in inventory records. In May 2006, the Administrative Services Division chief
received approval to procure a new storeroom inventory management system, but the selection of
a new system was put on hold in October 2006 so that management could explore cost-saving
alternatives. The Administrative Services Division chief is currently researching whether the
Logistics Group can customize an existing inventory management system used by the Plant
Division to meet its storeroom needs. As of December 2006, the Administrative Services
Division chief was preparing a new proposal for customizing the Plant Division’s existing
system for consideration by NIST budget and finance officials. He and the supply management
officer have received two demonstrations of the proposed system by the vendor to test whether it
meets the group’s needs. We encourage the Administrative Services Division chief to complete
his proposal and move forward to acquire and implement a new inventory management system.




21
     A unit may vary depending on the item (e.g. box of gloves, a package of pens, or individual staplers).
22
     The previous acting division chief held this position from January 2005 through June 2006.


                                                            19
                                             FOR OFFICIAL USE ONLY
U.S. Department of Commerce                                                   Final Report IPE-18321
Office of Inspector General          FOR OFFICIAL USE ONLY                               March 2007

Recommendations:

The Director of the National Institute of Standards and Technology should ensure that the
following actions are taken:

•   Assess the Logistics Group’s current purchasing needs and, if necessary, request additional
    acquisition training for future cardholders to allow for additional purchasing options, such as
    increasing the single purchase limit on the cardholder’s government credit card.

•   Ensure that all Logistics Group purchase card statements are properly reviewed and signed
    by both the cardholder and the approving official.

•   Complete and secure funding for the proposal to customize an existing system from the Plant
    Division that meets the Logistics Group’s storeroom needs and implement it. If that is not
    possible, select, purchase, and implement a new system.



NIST Response to OIG Draft Report and OIG Comments

NIST’s written response to our draft report did not address the recommendations that we
presented in this chapter. We reiterate our recommendations and believe that they will help
improve the group’s procurement activities and storeroom operations. We request that NIST
report any actions taken to fulfill these three recommendations in its action plan.




                                                20
                                    FOR OFFICIAL USE ONLY
U.S. Department of Commerce                                                 Final Report IPE-18321
Office of Inspector General         FOR OFFICIAL USE ONLY                              March 2007

                        SUMMARY OF RECOMMENDATIONS

The Director of the National Institute of Standards and Technology should ensure that the
following actions are taken:

   1. Revise NIST’s guidance on precious metals to include procedures relevant to inventory
      maintenance and to reflect current organizational information. (see page 5).

   2. Provide training to NIST’s precious metals custodians (see page 5).

   3. Properly safeguard security containers with personal appeal precious metals valued in
      excess of the threshold specified in NIST’s guidance (see page 6).

   4. Determine whether the Logistics Group’s large X-ray machine is needed. If it is, define
      the roles and responsibilities of the Logistics Group and the Emergency Services Division
      with respect to its use, provide adequate training to appropriate staff on how to operate
      the machine, and use it to screen the appropriate items. If it is not needed, transfer the
      machine to another part of the Department or otherwise dispose of it appropriately
      (see page 10).

   5. Continue to assess existing staff resources and positions and take appropriate action to
      ensure that the Logistics Group has adequate staffing to safely handle its daily operations
      (see page 12).

   6. Repair the ground below the Logistics Group’s cylinder room loading dock as soon as
      possible and take any other actions necessary to ensure that the cylinder room loading
      dock is safe for operation (see page 13).

   7. Provide the Logistics Group staff with additional safety information on the chemicals and
      gases that they handle (see page 13).

   8. Revise the Logistics Group’s written shipping and receiving guidance currently provided
      to NIST employees and better communicate the revised guidance to them (see page 14).

   9. Assess the Logistics Group’s current purchasing needs and, if necessary, request
      additional acquisition training for future cardholders to allow for additional purchasing
      options, such as increasing the single purchase limit on the cardholder’s government
      credit card (see page 17).

   10. Ensure that all Logistics Group purchase card statements are properly reviewed and
       signed by both the cardholder and the approving official (see page 17).

   11. Complete and secure funding for the proposal to customize an existing system from the
       Plant Division that meets the Logistics Group’s storeroom needs and implement it. If
       that is not possible, select, purchase, and implement a new system (see page 19).



                                               21
                                   FOR OFFICIAL USE ONLY
U.S. Department of Commerce                           Final Report IPE-18321
Office of Inspector General   FOR OFFICIAL USE ONLY              March 2007

              APPENDIX: NIST RESPONSE TO OIG DRAFT REPORT




                                       22
                              FOR OFFICIAL USE ONLY
